ii

51
IN THE

FILED
SEP 2 7 2021
SUPRfeEMEFCOlfRTLHflK

SUPREME COURT OF THE UNITED STATES

SHAWN R. ERPELDING,
Petitioner,
v.
SCOTT R. FRAKES, Director,
Nebraska Department of Correctional Services,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Shawn R. Erpelding #81027
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

QUESTIONS PRESENTED
1.

Whether pro se applications to vacate and set aside a state criminal

nonsupport judgment and its direct counterpart civil judgment tolls the
limitation period under the "properly filed" clause of 28 U.S.C. § 2244(d)(2),
Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA")?
2.

Whether pro se postconviction relief movants in Nebraska should be

held to the same stringent standards as one who is represented by counsel?

i

TABLE OF CONTENTS
PAGE NUMBER
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

A.

PROCEDURAL HISTORY

2

B.

STATEMENT OF FACTS

4

REASONS FOR GRANTING THE WRIT
I.

II.

6

CERTIORARI SHOULD BE GRANTED TO ALLOW THIS COURT TO ADDRESS
WHETHER PRO SE MOTIONS TO VACATE AND SET ASIDE A STATE CRIMINAL
NONSUPPORT JUDGMENT AND ITS DIRECT CIVIL COUNTERPART JUDGMENT
TOLLS THE LIMITATIONS PERIOD UNDER THE "PROPERLY FILED" CLAUSE
OF AEDPA, 28 U.S.C. § 2244(d)(2)............................................................

6

CERTIORARI SHOULD BE GRANTED TO ADDRESS WHETHER THE FOURTEENTH
AMENDMENT PROHIBITS STATE COURTS FORM HOLDING PRO SE POST­
CONVICTION MOVANTS TO THE SAME STRINGENT STANDARDS AS ATTORNEYS.
10
13

CONCLUSION
INDEX TO APPENDICES
APPENDIX A:

Judgment on appeal from the United States Court of Appeals
for the Eighth Circuit, Erpelding v. Frakes, No. 21-1058
(8th Cir.03/19/2021), unpublished.

APPENDIX B:

Order denying petition for rehearing by panel from the
United States Court of Appeals for the Eighth Circuit,
Erpelding v. Frakes, No. 21-1058 (8th Cir. 06/28/2021),
unpublished.

APPENDIX C:

Opinion and Judgment from the United States District Court
for the District of Nebraska, Erpelding v. Frakes, No.
8:20CV167 (D.Neb. 11/04/2020), unpublished (Filing Nos.
23-1 and 24-1).

ii

TABLE OF AUTHORITIES
CASES
Andrews v. United States/ 373 U.S. 334 (1963)
Castro v. United States, 540 U.S. 375 (2003)

6
7, 8
7

Dugan v. State, 297 Neb. 444 (Neb. 2017)
Earl v. Fabian, 556 F.3d 717 (8th Cir.2009)

11

Erickson v. Pardus, 551 U.S. 89 (2007)

11

Erpelding v. Frakes, No. 21-1058 (8th Cir.2021)

passim

Erpelding v. Frakes, No. 8:20CV167 (D.Neb. 2020)

passim

Erpelding v. Frakes, No. S-18-1111 (Neb. 2018) .

3
11

Estelle v. Gamble, 429 U.S. 97 (1976)
Gerber v. P&L Finance Co •

t

7

301 Neb. 463 (2018)

Holland v. Florida, 560 U.S. 631 (2010)

10

Kimmelman v. Morrison, 477 U.S. 365 (1986)

12

Pace v. DiGuglielmo, 544 U.S. 408 (2005)

7, 9
9

Rhines v. Weber, 544 U.S. 269 (2005)
Rosales v. United States, 138 S.Ct. 1897 (2018)
Shawn E. behalf Grace E. v. Diane S • / No. Cl 12-291 (2013)-

9, 10
passim

Shawn E. behalf Grace E. v. Diane S • / No. A-19-825 (Neb.App. 2020)

3

State v. Erpelding, No. CR 13-204 (2014) ..........................................

passim

State v. Erpelding, 292 Neb. 351 (Neb. 2015) ...................................

2

State v. Erpelding, No. A-17-332, 2018 WL 3752164 (Neb.App. 2018)

2, 12

State v. Erpelding, No. A-19-258 (Neb.App. 2020)

passim

State v. Loyd, 269 Neb. 762 (Neb. 2005) .............

7

State v. Marshall, 272 Neb. 924 (Neb. 2007)

11

Tilson v. Tilson, 307 Neb. 275 (Neb.. 2020)
iii

5, 7

CONSTITUTIONAL PROVISIONS
NE Const. Art. I, § 8

2

NE Const. Art. V> § 2

1/ 2

U.S. Const, amend XIV

passim

STATUTES AND RULES
28 U.S.C. § 1254

1

28 U.S.C. § 2244

passim

28 U.S.C. § 2253

4

28 U.S.C. § 2254

passim
3, 7

Neb.Rev.Stat. § 25-2001
Neb.Rev.Stat. § 28-706

2

Neb.Rev.Stat. § 29-221

2

Neb.Rev.Stat. § 29-3001

2

Fed. R. App. P. 4

4

iv

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review
the judgment and decision of the United States Court of Appeals for the
Eighth Circuit.
OPINIONS BELOW

The judgment on appeal from the United States Court of Appeals appears at
Appendix A to the petition and is unpublished. The opinion and judgment of the
United States District Court appears at Appendix C to the petition and is
unpublished (8:20CV167/Filing Nos. 23-1 & 24-1).
JURISDICTION
The order of the United States Court of Appeals denying timely petition
for rehearing by the panel was entered on June 28, 2021 (Appendix B). There
was no extension of time to file this petition for writ of certiorari and it
is timely filed by not later than September 27/ 2021. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides/ in
pertinent part/ that: "No state shall make or enforce any law which will
abridge the privileges or immunities of the citizens of the United States;
nor shall any state deprive any person of life/ liberty/ or property/ without
due process of law; nor deny to any person, within its jurisdiction the equal
1

protection of the laws."
28 U.S.C § 2244(d)(2) provides that: "The time during which a properly
filed application for State postconviction or other collateral review with
respect to the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection."
STATEMENT OF THE CASE
A.

PROCEDURAL HISTORY
On June 5/ 2014/ a Buffalo County/ Nebraska jury convicted Petitioner

Shawn R. Erpelding of four (4) counts of criminal nonsupport in violation
of Neb.Rev.Stat. § 28-706. The trial court on August 22, 2014 sentenced
Petitioner to enhanced concurrent terms of 12^ to 15 years imprisonment on
each count with a 10 year mandatory minimum under the habitual criminal
statute/ Neb.Rev.Stat. § 29-221 (Reissue 2008). On direct appeal, the Nebraska
Supreme Court affirmed Petitioner's convictions and sentences on December 31,
2015 in State v. Erpelding, 292 Neb. 351 (2015). Erpelding did not petition
this Court for a writ of certiorari on his direct appeal.
Petitioner subsequently sought postconviction relief in the state trial
court on September 6, 2016 pursuant to Neb.Rev.Stat. § 29-3001 et seq. On
March 3, 2017, the trial court denied Petitioner postconviction relief and
also denied his request for an evidentiary hearing. The Nebraska Court of
Appeals affirmed the trial court's denial of Petitioner's postconviction
relief motion without an evidentiary hearing on August 7, 2018 in State v.
Erpelding, No. A-17-332, 2018 WL 3752164 (Neb.App. 2018), unpublished, further
review denied November 15, 2018.
Petitioner also filed in the Nebraska Supreme Court on November 19, 2018,
a petition for writ of habeas corpus pursuant to Article I, § 8 and Article V,
2

§ 2 of the Constitution for the State of Nebraska. The Nebraska Supreme Court
summarily denied Petitioner's writ of habeas corpus petition on December 12,
2018 in Erpelding v. Frakes, No. S-18-1111 (Neb 2018), unpublished, rehearing
denied January 28, 2019. Petitioner filed a motion and complaint to vacate and
set aside judgment in the trial court on January 21 and 23, 2019 pursuant to
Neb.Rev.Stat. § 25-2001 et seq. with respect to both his criminal nonsupport
Case No. CR 13-204 and its counterpart civil Case No. Cl 12-291 for collateral
review of the same pertinent State court judgment. The trial court entered its
order denying Petitioner's motion to vacate in Case No. CR 13-204 on February
26, 2019. The trial court entered its order denying Petitioner's complaint to
vacate in Case No. Cl 12-291 on July 26, 2019. The Nebraska Court of Appeals
dismissed the appeal with respect to the trial court's denial of Petitioner's
motion to vacate on February 12, 2020 in State v. Erpelding, No. A-19-258
(Neb.App. 2020), unpublished, further review denied May 4, 2020. The Nebraska
Court of Appeals affirmed the trial court's denial of Petitioner's complaint
to vacate on May 14, 2020 in Shawn E. behalf Grace E. v. Diane S • / No.
A-19-825 (Neb.App. 2020), unpublished, further review denied August 13, 2020.
On April 23, 2020, Petitioner timely filed in the United States District
Court a petition under 28 U.S.C. § 2254 for federal habeas corpus relief from
his conviction and sentence imposed by the State of Nebraska court judgment
(8:19CV167/Filing No. 1). Petitioner also filed in the district court on April
23, 2020, a motion for stay and abeyance of 28 U.S.C. § 2254 proceedings due
to ongoing or pending State court proceedings with respect to the same
pertinent State court judgment (id./Filing No. 2). The district court denied
Petitioner's motion to stay on June 22, 2020, and denied him habeas corpus
relief by granting Respondent's summary judgment motion on January 8, 2021,
3

finding Petitioner's section 2254 habeas petition time barred under 28 U.S.C.
§ 2244(d) (id./Filing Nos. 13-1, 23-1 & 24-1) (Appendix C). On January 7, 2021,
Petitioner timely filed his notice of appeal in the district court, after leave
for an extension of time was granted pursuant to Fed. R. App. P. 4(a)(1)(A),
along with his application for a certificate of appealability to the Eighth
Circuit Court of Appeals pursuant to 28 U.S.C. § 2253(c) (id./Filing Nos. 27-1,
28, 29, & 32-1). The United States Court of Appeals for the Eighth Cicuit
entered its judgment on March 19, 2021 denying Petitioner a certificate of
appealability (Appendix A). Petitioner also timely filed a petition for
rehearing by the panel that was denied on June 28, 2021 (Appendix B).
B.

STATEMENT OF FACTS
Shawn R. Erpelding was convicted in 2014 for allegedly failing to pay his

child support on the word of the State prosecution whose assertions were
inherently fraudulent. The State of Nebraska sought to enforce an invalid
temporary child support order that was previously dismissed by the trial court
for lack of prosecution. Despite the prosecution's failure to prove beyond a
reasonable doubt that said order in question was even valid, the jury
instructions omitted necessary elements of the alleged crime to accurately
reflect law. There was no evidence adduced at Erpelding's trial to even suggest
that he intentionally failed to provide support for his dependent child. In
fact, the evidence adduced at trial establised that Erpelding did pay child
support in the amount of $250.00 per month (S-14-813/B.O.E. 248:2-7).
Since 2003, Erpelding and his girlfriend Diane had been cohabiting with
their children like that of a common-law marriage. Due deterioration of their
relationship, Erpelding filed a complaint in the trial court on May 14, 2012
to establish paternity, custody, visitation, and support for his then four year
4

old daughter. On August 2, 2012/ however/ the court awarded Diane temporary
custody and support for $225.00 per month. Shortly thereafter the entry of
this order/ Erpelding and Diana reconciled as a couple and resumed normal
child rearing responsibilities. On April 4, 2013/ the trial court entered
an "Order to Show Cause" why the case should not be dismissed in twenty (20)
days for lack of prosecution. Diane then furtively files a "Notice of Final
Hearing" in the trial court on May 3, 2013/ violating or misrepresenting her
previous agreement with Erpelding concerning the care/ custody/ and management
of their child.
Erpelding and his attorney were not notified prior to any hearings in the
trial court/ nor served by Diane with any responsive pleadings/ which prompted
Erpelding's attorney to later withdraw from the case in belief that it was
settled. Furthermore, neither party nor the trial court ever motioned to
reinstate the case before its summary dismissal on April 24, 2013, or to
vacate the "Order to Show Cause" which divested the trial court to take any
further action in the matter. See, Tilson v. Tilson, 307 Neb. 275, 291-92 n.10
(2020). On August 5, 2013, Erpelding was falsely charged with criminal non­
support along with the habitual criminal enhancement and then maliciously
prosecuted by the State of Nebraska in complete lack of all jurisdiction.
Erpelding, throughout state court proceedings, had the misfortune of being
represented by ineffective counsel who did virtually no investigation on his
behalf. Consequently, Erpelding went to trial without any reasonable.
independent investigation into his actual innocence.
Erpelding filed in the trial court a motion for new trial, motion for
postconviction relief, motion to vacate and set aside judgment, and complaint
to vacate and set aside judgment for collateral review of both the criminal
5

judgment and its counterpart civil judgment that the alleged nonsupport
allegations were based upon. These postconviction motions and Erpelding's
federal petition under 28 U.S.C. § 2254 for writ of habeas corpus raised
20-plus constitutional violation claims—including his colorable actual
innocence claim, jurisdictional claims, and requested evidentiary hearings
(8:20CV167/Filing No. 1). The trial court denied all of Erpelding's post­
conviction motions and the United States District Court denied his section
2254 petition finding that the filing of a motion to vacate in state court
did not toll the limitations period under 28 U.S.C. § 2244(d)(2). See,
(8:20CV167/Filing No. 23-1, at CM/ECF pp.5-6) (Appendix C, at pp.5-6).
The United States Court of Appeals for the Eighth Circuit denied Mr.
Erpelding's application for a certificate of appealability on March 19, 2021
in Erpelding v. Frakes, No. 21-1058 (8th Cir.2021), unpublished (Appendix A),
rehearing denied June 28, 2021 (Appendix B). The present petition for writ of
certiorari is now before this Court for its consideration.
REASONS FOR GRANTING THE WRIT
I. CERTIORARI SHOULD BE GRANTED TO ALLOW THIS COURT TO ADDRESS WHETHER PRO SE
APPLICATIONS TO VACATE AND SET ASIDE A STATE CRIMINAL NONSUPPORT JUDGMENT AND
ITS DIRECT CIVIL COUNTERPART JUDGMENT TOLLS THE LIMITATIONS PERIOD UNDER THE
"PROPERLY FILED" CLAUSE OF AEDPA, 28 U.S.C. § 2244(d)(2).
This Court has held that adjudication upon the underlying merits of claims
asserted by a prisoner attacking his sentence under which he is held in
custody is not hampered by reliance upon titles the prisoner puts upon his
documents. Andrews v. United States, 373 U.S. 334, 338 n.2 (1963).
The facts in this case present this Court with an ideal opportunity to
resolve the confusion of Nebraska courts regarding pro se applications for
postconviction relief and "properly filed" determinations. In State v.
6

Erpelding, No. A-19-258 (Neb.App. 02/12/2020), unpublished, the Nebraska Court
of Appeals summarily dismissed Petitioner's postconviction appeal finding:
Motion to vacate pursuant to § 25-2001(2) and (4) is limited to civil
proceedings, there being no mention of such remedy in Neb.Rev.Stat. §
29-2101 to 29-2106 which details remedies dealing with criminal
procedure after a guilty verdict is entered in a criminal action.
Id. And with no analysis whatsoever, the Appellate Court held:
For that reason, Appellant's motion to vacate pursuant to § 25-2001(2)
and (4) may be characterized as a procedural and legal nullity and this
court lacks subject matter jurisdiction over appeal. See, State v.
Louthan, 257 Neb. 174, 186, 595 N.W.2d 917, 925 (1999) ("where a
criminal procedure is not authorized by statute, it is unavailable to
a defendant in a criminal proceeding"); State v. Miller, 240 Neb. 297,
481 N.W.2d 580 (1992).
Id. (8:20CV167/Filing No. 10-3, at CM/ECF p.4).
In Pace v. DiGuglielmo, 544 U.S. 408 (2005), this Court looked to state
law to determine whether a pleading filed in state court had been "properly
filed" for purposes of a federal time limit. Clearly established state law
in Nebraska is supposed to treat motions according to their substance and not
their title. See, Tilson v. Tilson, 307 Neb. 275, 291-92 n.10 (2020); Gerber
v. P&L Finance Co • / 301 Neb. 463 (2018); Dugan v. State, 297 Neb. 444, 452
(2017) ("How a motion should be regarded for purposes of determing whether its
denial is a final order depends upon the substance of the motion and not its
title."); State v. Loyd, 269 Neb. 762, 768 n.15 (2005) (a determination as to
how a motion should be regarded depends upon the substance of the motion, not
its title.). However, the Nebraska Court of Appeals disregarded its own laws
by placing characterization of labels over substance when making determinations
of Erpelding's pro se postconviction applications.
Contrary to this Court's holding in Castro v. United States, 540 U.S. 375
(2003), the United States District Court also placed characterization of
7

labels over substance when making a determination of Erpelding1s section 2254
petition. With virtually little legal analysis whatsoever/ the district court
found that:
To be clear, Petitioner's reliance on a civil law statute unrelated to
criminal matters to set aside a criminal conviction lacks support in
any of the cases that I have found. It is also illogical. I am not
persuaded that I have the authority to, or should, impute into a
Nebraska civil law statute an escape hatch for avoiding the consequences
of the federal habeas corpus statute of limitations that deals with
criminal convictions but not general civil actions. If this is to be
done, it is for those higher on the food chain than me. Frankly, I do
not think the case is close, (emphasis added).
(8:20CV167/Filing No. 23-1, at CM/ECF p.6, H3) (Appendix C, at p.6, U3). In
Castro, this Court held that federal courts may ignore the legal label that
a pro se litigant attaches to a motion and recharacterize the motion and place
it within a different legal catagory, in order to avoid inappropriately
stringent application of formal labeling requirements, or to create a better
correspondence between the substance of a pro se motion's claim and its
underlying legal basis. Id • i 540 U.S. at 387 n.4. Instead of less stringent
standards, the Nebraska courts and federal district court held Erpelding's pro
postconviction motion to vacate to higher stringent standards than that of
pleadings drafted by licensed attorneys.
The plain language of 28 U.S.C. § 2244(d)(2) provides that: "The time
during which a properly filed application for State postconviction or other
collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection."
This Court has stated that "[a] prisoner seeking state postconviction relief
might avoid [federal limitations period] predicament — by filing a
'protective' petition in federal court and asking the federal court to stay
and abey the federal habeas proceedings until state remedies are exhausted."
8

Pace, 544 U.S. at 416-17; citing Rhines v. Weber, 544 U.S. 269 (2005).
Petitioner Erpelding followed this Court's directive in Pace and Rhines
precisely by moving the district court for stay and abeyance of 28 U.S.C.
§ 2254 proceedings when he filed his habeas petition on August 23, 2020 to
exhaust his state court remedies (8:20CV167/Filing No. 2). However, the
district court erroneously denied both of Erpelding's motions to stay and
for reconsideration of motion to stay (id./Filing Nos. 13-1, 18 & 20-1).
Erpelding's state court appeals with respect to the trial court's denials of
his postconviction applications to vacate the criminal nonsupport judgment
and, its counterpart civil judgment that it was spawned from, were still
pending when Erpelding filed his protective section 2254 petition in federal
district court. See, (8:20CV/Filing No. 1, at pp.6-10). Jurists of reason
would find it debatable whether Erpelding's habeas petition states a valid
claim of the denial of a constitutional right, and jurists of reason would
also find it debatable whether the district court was correct in its procedural
rulings in denying Erpelding's motions to stay and ruling his habeas petition
is barred by the limitations period set out in 28 U.S.C. § 2244(d) (id./Filing
Nos. 1 & 23-1) (Appendix C). See, Slack v. McDaniel, 529 U.S. 473, 484 n.7
(2000).
The federal district court also committed plain error in finding that Mr.,
Erpelding's postconviction motion to vacate in state court is "a procedural
and legal nullity" and "also illogical" and that it "did not toll the statute
of limitations because [it] was not a 'properly filed application for State
postconviction or other collateral review. I H 28 U.S.C. § 2244(d)(2) (id./
Filing No. 23-1) (Appendix C). It is well established that courts should
correct plain error that effects substantial rights "if the error seriously
9

affects the fairness, integrity or public reputation of judicial proceedings."
Rosales v. United States, 138 S.Ct. 1897, 1906 (2018). At the very least, the
district court should have exercised its equity powers by granting Erpelding
tolling of the AEDPA limitations period under this Court's holding in Holland
v. Florida, 560 U.S. 631 (2010). Flexibility inherent in equitable procedure
enables courts to meet new situations that demand equitable intervention, and
to accord all relief necessary to correct particular injustices. Id., 560 U.S.
at 650 n.10. The correction of all the injustices in Erpelding's case demands
equitable intervention with special treatment of his section 2254 petition and
tolling should have been warranted. Jurists of reason would find it debatable
whether the district court was correct in denying Erpelding equitable tolling
under Holland.
Certiorari should be granted to address whether the procedures of Nebraska
courts of placing characterization of labels over substance when making
determinations of pro se postconviction motions violates the due process
clause of the Fourteenth Amendment. This Court's discretionary intervention is
necessary to address this important issue that will undoubtedly recur in
future cases.
II. CERTIORARI SHOULD BE GRANTED TO ADDRESS WHETHER THE FOURTEENTH AMENDMENT
PROHIBITS STATE COURTS FROM HOLDING PRO SE POSTCONVICTION MOVANTS TO THE SAME
STRINGENT STANDARDS AS ATTORNEYS.
The manner in which the Nebraska Court of Appeals and the United States
District Court summarily disposed of Erpelding's postconviction motion and
section 2254 petition without affording him an evidentiary hearing and in
failing to follow its own and this Court's clearly established law implicates
several constitutional concerns under the Fourteenth Amendment. First and
foremost, because Erpelding was not afforded a hearing in state or federal
10

court to evaluate the substance of his constitutional violation claims, this
Court should intervene to address whether the due process clause prohibits
courts from holding a pro se postconviction movant to the same standard as one
who is represented by counsel. See, Erickson v. Pardus, 551 U.S. 89 (2007)
(PER CURIAM). This Court has held that "[a] document filed pro se is to be
liberally construed, and a pro se complaint, however inartfully pleaded, must
be held to less stringent standards than formal pleadings drafted by lawyers."
Id., 551 U.S. at 94; citing Estelle v. Gamble, 429 U.S. 97, 106 (1976). The
Eighth Circuit Court of Appeals has also held that "[p]ro se habeas filings
are to be construed liberally." Earl v. Fabian, 556 F.3d 717, 723 (8th Cir.
2009), which is equivalent to Erpelding's postconviction motion to vacate and
set aside judgment (A-19-258/T3-58) (8:20CV167/Filing No. 10-6, at CM/ECF
pp.4-59). The Nebraska Supreme Court has held that a pro se postconviction
movant is held to the same standard as one who is represented by counsel, see
State v. Marshall, 272 Neb. 924 (2007), which is contrary to this Court's
holdings in Erickson and Estelle. In 2011, the Nebraska Legislature enacted
a one year statute of limitation for filing a postconviction relief motion.
Laws 2011, LB 137, § 1, effective August 27, 2011. See, Neb.Rev.Stat. §
29-3001(4). Most convicted prisoners cannot afford to hire postconviction
counsel to objectively evaluate trial counsel's effectiveness or trial errors.
Consequently, most prisoners must learn legal procedures, case law (and its
application to the individual prisoner's circumstance), and then must apply
what was learned to a cogent postconviction motion before the lapse of the
1-year statute of limitation. The state-law procedures in Nebraska of holding
a pro se postconviction movant to the same stringent standards as an attorney
is inconsistent with traditional principles of justice and recognized
11

principles of fundamental fairness, thus violates Erpelding1s federal due
process rights. Law students do not even gain the knowledge to perfect a
postconviction relief petition in their first year of study, whereas convicted
prisoners with often limited education must do so.
This Court held in Kimmelman v. Morrison, 477 U.S. 365, 378 (1986), that
"[a] layman will ordinarily be unable to recognize counsel's errors and to
evaluate counsel's professional performance, consequently a criminal defendant
will rarely know that he has not been represented competently until after trial
or appeal, usually when he consults another lawyer about his case." (citations
omitted). The state-law postconviction relief procedures in Nebraska are
unquestionably contrary to the fundamental principles of fairness and violates
convicted prisoners, such as Erpelding, federal constitutional rights to due
process of law, as guaranteed by the Fourteenth Amendment to the United States
Constitution. Even Erpelding's first postconviction motion was determined by
the Nebraska courts to be procedurally inadequate. See, State v. Erpelding,
No. A-17-332, 2018 WL 3752164 (Neb.App. 2018), further review denied November
15, 2018. The Nebraska state courts and federal district court's summary
dismissal of Erpelding's timely meritorious postconviction relief applications
undermines the integrity of the criminal justice system and, if left
undisturbed, will result in a constutionally intolerable conviction or the
most egregious of all situations—the conviction of an innocent man. A writ
of certiorari should issue on this basis.

12

CONCLUSION

For the foregoing reasons, the petition for writ of certiorari should
be granted,
Respec

’ly submi,

Shawn R. Ei^pelding #81027
Nebraska State B^nitentia:
P.O. Box 22500
42-2500
Lincoln, Nebraska
(402) 471-3161
PRO SE PETITIONER
September 24, 2020

13

